HHS/OIG-Audit--"Heartland of Tamarac, A Skilled Nursing Facility,
Billing and Costs for Ancillary Medical Supplies, (A-09-96-00091)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Heartland of Tamarac, A Skilled Nursing Facility, Billing and Costs
for Ancillary Medical Supplies for the Period January 1, 1993 through December
31, 1994," (A-09-96-00091)
October 21, 1997
Complete Text of Report is available in PDF format
(531 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We found that about 24 percent of the ancillary medical supply costs claimed
by Heartland were misclassified on its Medicare cost reports. In addition, about
13 percent of items billed to Medicare as ancillary pharmacy items were actually
routine supplies. Heartland is one of 127 nursing facilities owned by Health
Care Retirement Corporation (HCRC). Since the errors we found may also have
occurred at the other HCRC facilities, we recommended that HCRC determine the
fiscal impact at all 127 facilities for incorrectly claimed costs and billing
errors and make an appropriate refund to Medicare. We also recommended that
HCRC review is master list to identify and correct its classifications of ancillary
medical and pharmacy supplies that should be treated as routine.